No. 19-1291

In the Supreme Court of the United States
CHARLES HAMNER,
Petitioner,
v.
DANNY BURLS, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Nicholas J. Bronni, counsel for Respondents Danny Burls et al., hereby certify
that on this day, August 14, 2020, I caused one copy of Respondents’ Brief in Opposition to be served by email on the following counsel:
Daniel M. Greenfield
daniel-greenfield@law.northwestern.edu
Counsel for Petitioner
Pursuant to this Court’s April 15, 2020 Order, the parties have agreed to electronic service. I further certify that all parties required to be served have been served.

/S/ NICHOLAS J. BRONNI
NICHOLAS J. BRONNI
Arkansas Solicitor General
Counsel of Record
OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Suite 200
Little Rock, AR 72201
(501) 682-6302
Nicholas.Bronni@arkansasag.gov

